WAIVER

Supreme Court of the United States

No. 20-7996

Roland Leroy Reese-Bey v. Juan Guerrero, et al.
(Petitioner) (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box:
% Iam filing this waiver on behalf of all respondents.

0 Lonly represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

 

 

Please check the appropriate box:

i Tama member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

0 Lam not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme, Court, a Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
v/ Ue ( J y

 

    

/ f
Signature. \) Ay! (-
Date: 7 | |z. \
Janet L. Keuper
O Mr. Ms. OMrs. O Miss

Seki, Nishimura & Watase, LLP

(Type or print) Name

Firm

Address _©°° Wilshire Blvd., Suite 1250

City & State Los Angeles, CA Zip 90017

Phone 213-481-2869 Email jkeuper@snw-law.com

ACOPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

cc: Roland Leroy Reese-Bey
